No.

IN THE
SUPREME COURT OF THE UNITED STATES

JETHRO L. CLAIRVOYANT,
Petitioner,
MARK INCH (FLDOC),
Respondent.

SUPPLEMENTAL APPENDIX TO
PETITION FOR WRIT OF
CERTIORARI TO THE ELEVENTH
CIRCUIT COURT OF APPEALS

Jethro L. Clairvoyant
Columbia Correctional Institution
216 S.E. Corrections way
Lake City, FL 32025

INDEX TO APPENDIX
APPENDIX A,
The opinion of the Eleventh Circuit Court of appeals is not
yet reported and is attached as Appendix A (Attached
order).
APPENDIX B
The United States District Court for the Southern District
of Florida affirmed by the Eleventh Circuit Court of
Appeals was without opinion (order attached, and
magistrate's report and Recommendation Appendix B).
APPENDIX C
The opinion of the Florida District Court of Appeals is
reported at 92 So.3d 839 (Fla. 4th DCA 2012), (order
attached).

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

FILED
U S COURT OF APPEALS
’ ELEVENTH CIRCUIT

No. 19-15011-J

FEB 1 4 2020

David J. Smith
Clerk

JETHRO L. CLAIRVOYANT,

Petitioner-Appellant,
versus
DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondents-Appellees.
Appeal from die United States District Court
for the Southern District of Florida
ORDER:
To merit a certificate of appealability, appellant must show that reasonable jurists would
find debatable both (1) the merits of an underlying claim, and (2) the procedural issues that he
seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S, 473, 478 (2000).
Appellant’s motion for a certificate of appealability is DENIED because he failed to make the
requisite showing.
/s/ Charles R. Wilson
UNITED STATES CIRCUIT JUDGE

■!

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-15011-J
JETHRO L. CLAIRVOYANT,
Petitioner-Appellant,
versus

DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondents-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
Before: WILSON and NEWSOM, Circuit Judges.
BY THE COURT:
Jethro Clairvoyant has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c)
and 27-2, of this Court’s February 14, 2020, order denying a certificate of appealability in his
appeal of the district court’s denial of his pro se 28 U.S.C. § 2254 habeas corpus petition. Upon
review, Clairvoyant’s motion for reconsideration is DENIED because he has offered no new
evidence or arguments of merit to warrant relief.

APPENDIX B

i

Case: 9:16-cv-80696-KAM

Document #: 46 Entered on FLSD Docket: 11/27/2019

Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-80696-CIV-MARRA
JETHRO L. CLAIRVOYANT,
Petitioner,

V

■

vs.
MARK S. INCH,
Respondent.

FINAL JUDGMENT
For the reasons stated in the Report of the Magistrate Judge and upon independent de
novo review of the file, and over the objections having been filed, it is ORDERED AND
ADJUDGED as follows:
1)

The Court hereby adopts and affirms the Report and Recommendation of the
Magistrate Judge. The petition to vacate pursuant to 28 U.S.C. § 2254 is denied.

2)

Under Rule 11(a) of the Rules Governing Section 2254 Proceedings in the United
States District Courts, this Court must issue or deny a certificate of appealability
when entering a final order adverse to the applicant. Because the Court is
adopting the Magistrate Judge’s Recommendation denying the motion to vacate
brought under 28 U.S.C. § 2254, the Court must consider whether to issue or deny
the certificate of appealability at this time.
The Court concludes under Slack v. McDaniel, 529 U.S. 473 (2000), that
Petitioner cannot shown that “jurists of reason Ayould find it debatable whether the
petition states a valid claim of denial of a constitutional right, and that jurists of

case: y.ib-cv-80696-KAM

Document #: 46 Entered on FLSD Docket: 11/27/2019

Page 2 of 2

reason would find it debatable whefher the district court was correct in its
procedural ruling.” Id. at 478. Therefore, the Court DENIES a certificate of
appealability. The Court notes that under Rule 22(b)(1) of the Federal Rules of
Appellate Procedure, the Petitioner may seek a certificate of appealability from
the U.S. Court of Appeals for the Eleventh Circuit.
3)

All motions not otherwise ruled upon are dismissed as moot.

4)

The case is closed.

DONE AND ORDERED in Chambers at West Palm Beach, Palm Beach County,
Florida, this 27* day of November, 2019.

KENNETH A. MARRA
United States District Judge

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 1 of 51

■ ■r

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO: 16-80696-CV-MARRA
MAGISTRATE JUDGE REID
JETHRO CLAIRVOYANT,
Petitioner,
v.

MARK S. INCH, i
Respondent.

REPORT AND RECOMMENDATION OF MAGISTRATE JUDGE ON
PETITION FOR WRIT OF HABEAS CORPUS
I. Introduction
The pro se petitioner, Jethro Clairvoyant, who is presently confined at the
Columbia Correctional Institution, has filed this third amended petition for writ of
habeas corpus pursuant to 28 U.S.C. § 2254, challenging the constitutionality of his
conviction and sentence, entered following a jury trial in the Fifteenth Judicial
Circuit, Palm Beach County, Case No. 2007-CF-006175. [ECF 26].
This Cause has been referred to the undersigned for consideration and report,

1 Julie L. Jones is no longer the Secretary of the Department of Corrections. Mark S. Inch is now
the proper respondent in this proceeding. Inch should, therefore, “automatically” be substituted as
a party under Federal Rules of Civil Procedure 25(d)( 1). The Clerk is directed to docket and change
the designation of the Respondent.

1

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 2 of 51

pursuant to 28 U.S.C. § 636(b)(1)(B) and the Rules Governing Habeas Corpus
Petitions in the United States District Courts.
For its consideration of the amended petition [ECF 26], the court has received
the state’s response [ECF 33] to this court’s order to show cause, along with its
supporting appendices [ECF 34, 35], containing copies of relevant state court
records and transcripts.
After reviewing the pleadings, for the reasons stated in this Report, the
Undersigned recommends that the petition be denied because Petitioner is not
entitled to relief on the merits.
II. Factual and Procedural History
A. Charges
Petitioner was charged with trafficking in cocaine, attempted second degree
murder (five counts), fleeing or attempting to elude, driving while license suspended,
possession of marijuana, and aggravated assault on a police officer (five counts).
[ECF 34-1, pp. 2-6]. The charges arose during an attempted “reverse buy-bust
operation” that had been facilitated by a confidential informant. Prior to jury
selection the State dismissed the fleeing or eluding charge, the driving while license
suspended charge and the possession of marijuana charge. [ECF 35-2, p. 16].
B. Trial Evidence
Based on a tip, Deputy Sheriff Kevin Drummond, and three other deputies
2

Case: 9:16-cv-80696-KAM

Document #: 41 .Entered on FLSD Docket: 11/06/2019

Page 3 of 51

went to the Cheetah Nightclub in an unmarked undercover Jeep at three or four in
the morning of April 28, 2007. [ECF 35-4, pp. 42-44]. Deputy Drummond parked
the Jeep on the north side of Cheetah's parking lot. [Id,, p. 46]. Deputy Drummond
saw Petitioner’s black Mercedes enter the parking lot traveling at 20 to 25 miles per
hour and drive to the back of the parking lot. [Id, pp. 46, 50]. Deputy Drummond
drove the jeep east, until the two cars came head-to-head. [Id, p. 50]. At that point,
the four deputies, wearing tactical uniforms, exited the jeep. [Id, pp 44, 50-51],
When the driver of the Mercedes saw the deputies, he backed up and went around
the comer of the parking lot at 30 to 35 miles per hour. [Id, p. 51]. The deputies
yelled to the driver, “Sheriff’s Office, stop the vehicle” and chased the Mercedes on
foot. [Id, p. 51-52].
As the deputies were chasing the Mercedes, a marked Sheriff’s patrol car with
overhead lights entered the parking lot. [Id, p. 52]. When those officers exited the
marked patrol car, the first four deputies were in front of the Mercedes, and the other
deputies from the patrol car were standing to the left of the Mercedes. [Id, p. 53].
As Deputy Drummond was standing about ten feet from the Mercedes, he
heard the driver revving the engine several times. [Id]. The Mercedes came within
a few feet of Deputy Drummond at approximately ten to fifteen miles per hour. [Id,
p. 56]. Petitioner, who was identified as the driver, then sped through the parking lot
going eastbound. [Id]. Deputy Drummond chased the Mercedes and watched as it
3

Case: 9:l6-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 4 of 51

turned the comer and collided with the unmarked Jeep. The Mercedes jumped the
curb and continued westbound going at least 40 miles per hour. [Id., pp 56-57].
When the Mercedes went over the curb, Deputy Piatchek and Deputy Reyes
were in front of the Mercedes. [Id., p. 57]. Deputy Drummond saw the Mercedes
heading directly towards Deputy Piatchek. [Id., p. 58]. Deputy Piatchek fired his
weapon at the Mercedes. [Id., p. 59]. Deputy Drummond testified that when the
Mercedes was first surrounded by deputies, no one fired their gun. [Id., p. 73]. It was
not until the Mercedes drove towards Deputy Piatchek that shots were first fired.
[Id.]. Deputy Drummond heard more shooting as the Mercedes drove towards
Deputy Reyes. [Id., p. 74]. When the shooting began, Deputy Drummond jumped
behind some parked cars to get out of the line of fire. [Id, p. 59]. When Deputy
Drummond looked out again, the Mercedes was out of the parking lot on Osceola
Drive, with the door open and the driver gone. [Id.]
Deputy Piatchek testified that when the undercover Jeep and the Mercedes
came head to head with each other, “there was not enough room for anybody to pass
each other” so the four officers exited the Jeep and approached the front end of the
Mercedes with weapons drawn. [ECF 35-5, pp. 19-20]. The Deputies shouted,
“Sheriffs Office,” and ordered Petitioner to show his hands. [Id., p. 20]. Petitioner
revved the engine, tried to squeeze between the curb and the Jeep, striking the back
end of the Jeep. [Id., p. 21]. The car then drove directly at Deputy Piatchek [Id., p.
4

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 5 of 51

21]. When the Mercedes was within a couple of feet of Deputy Piatchek began to
fear for his life and fired six or seven shots toward the car. [Id., pp. 20, 22-23, 43].
After Deputy Piatchek fired, Petitioner redirected the Mercedes and went out the
entrance of the parking lot. [Id., p. 24].
Deputy Sheriff Sean McMichael testified the Jeep was blocking the
Mercedes’ forward progress, so Deputy McMichael exited the Jeep and stood on the
driver's side. [Id., p. 121-22], The Mercedes reversed straight back, then accelerated
at a high rate of speed. [Id., p. 122]. When Deputy McMichael saw the Mercedes
trying to flee, Deputy McMichael ran on foot chasing after the Mercedes and stood
in front of the marked unit. [Id., p. 123]. Deputy McMichael told Petitioner to show
his hands and get out of the car. [Id., p. 124]. Petitioner, however, ignored these
instructions and drove around, jumping a curb before striking the Jeep. [Id., pp. 126].
In fear that the Mercedes was going to hit him, Deputy McMichael fired four times
at the driver's side window of the Mercedes, [Id., pp. 127, 133].
Deputy Sheriff Iris Reyes arrived at the Cheetah parking lot in a marked, green
and white patrol vehicle. [Id., p. 66]. When she arrived, the Mercedes was already
in the parking lot and backing into the alleyway at high speed. [Id., p. 67]. Deputy
Reyes noticed the Mercedes was stationary for a few seconds while Petitioner revved
the engine. [Id.]. After getting out of the patrol car, Deputy Reyes went over to the
Mercedes and ordered Petitioner to get out of the car [Id., pp. 69]. Petitioner did not
5

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 6 of 51

comply but rather drove his car forward, eastbound through the parking lot, then
traveled northbound through the parking lot. [Id., pp. 69-70]. Deputy Reyes ran
across and saw the Mercedes hit the unmarked Jeep. [Id., p. 70]. Petitioner then
turned back toward Reyes, where the police units were blocking the exit. [Id.]. As
the Mercedes sped toward Deputy Reyes she fired one shot at the driver because she
was in fear of being struck by the Mercedes. [Id., pp.. 71-72, 87-88]. When she fired,
Deputy Reyes had already heard multiples shots. [Id., pp. 71-72], The Mercedes then
left the parking lot by jumping the curb and came to a stop in the street. [Id. , p. 72].
Officer Mark Sohn saw the Mercedes nearly hit Deputy Reyes and then drive
straight toward him. [Id., pp. 97-98]. Officer Sohn was in fear for his life so he fired
about 13 times . [Id.]. Sergeant Mark Glogowski exited the marked patrol unit when
he noticed the Mercedes driving at a high rate of speed in the parking lot. [ECF 356, p. 21]. Thinking the driver would have to stop the car and run on foot, Sergeant
Glogowski ran through the parking lot while keeping an eye on the Mercedes. [Id.].
As he did so, Sergeant Glogowski noticed that the Mercedes came back straight
toward him. [Id., p. 22]. Sergeant Glogowski was in fear for his life so he jumped
out of the way so as not to get hit by the Mercedes [Id., pp. 22-23].
Deputy Sheriff Paul Heckler was driving to West Palm Beach with his dog
when he heard gunshots. [Id., p. 49]. As he approached Osceola, Deputy Heckler
saw the black Mercedes come out of the parking lot and some deputies chasing the
6

Case; 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 7 of 51

Mercedes on foot. [Id., pp. 49-50]. Deputy Heckler sped up and saw the Petitioner
exit the Mercedes and run through another parking lot. [Id., p. 50]. Deputy Heckler
stopped his car in the middle of the intersection, turned on the police car’s overhead
lights, and yelled at Petitioner to stop or he would release his dog. [Id.]. When
Petitioner did not stop, Deputy Heckler deployed his dog to apprehend Petitioner.
[M,pp. 50-51].
After the gunfire ceased, Sergeant Glogowski ran to the patrol car and notified
dispatch before heading towards where the Mercedes had come to a stop. [Id., pp.
23-24]. Sergeant Glogowski saw the Mercedes stopped on the side of the road with
the driver’s side door open. [ECF 35-6, pp. 733]. He saw that Deputy Heckler’s dog
had apprehended Petitioner. [Id., pp. 25].
Officer Sohn saw the Mercedes exit the parking lot and come to a stop in the
street, Petitioner get out of the Mercedes and run west into another parking lot, and
then run out onto Okeechobee Boulevard. [ECF 35-5 p. 101]. Officer Sohn saw
Petitioner approach a car that was stopped at the intersection .[ Id., p. 101]. At that
point, however, a police dog apprehended Petitioner. [Id., p. 102]. When Deputy
Reyes saw the Mercedes had exited the parking lot, she re-entered the patrol car, and
went to the Mercedes that had stopped on Osceola. [Id., p. 73]. Deputy Reyes looked
inside the Mercedes where she saw a bag containing a white substance. [Id., p. 75].
Based on her training and experience, Deputy Reyes believed the substance was
7

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 8 of 51

cocaine. [Id., p. 77].
Agent Carlos Ribeiro testified that on April 28, 2007, when he looked in the
Mercedes, he saw a baggie containing white, powdery substance between the driver's
seat and the center console [ECF 35-4, p. 26]. Crime Scene Investigator Jennifer
Howell, searched the Mercedes on April 30, 2007 pursuant to a search warrant and
recovered the bag filled with white powder from inside the black Mercedes [Id., pp.
139-40]. Forensic Scientist Marcus Warner testified -that the white powdery
substance tested positive for the presence of cocaine and weighed 251.00 grams
[ECF 35-5, pp. 56-57].
Petitioner testified at trial. [ECF 35-6, pp. 61-94]. He admitted he was the
driver and sole occupant of the black Mercedes. [Id., p. 64]. Petitioner claimed he
went to the Cheetah Nightclub at 4:00 a.m. Saturday morning, April 28, 2007, to
celebrate his birthday, which was the following day. [Id., p. 73].
Petitioner testified that as he was looking for a parking space, he saw a vehicle
and people jumping out of the vehicle, “I don't know who they are, they just jumped
out of the vehicle unannounced. I seen a gun in their hand, and I got afraid.” [Id., p.
66]. Petitioner panicked, put his car in reverse and went all the way around. [Id.].
Petitioner told the jury, the people did not “announce themselves or nothing” and he
could not tell the people with guns were police officers. [Id., pp. 67-68]. He testified
that nobody ordered him to get out of the car and that he was afraid he was being
8

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 9 of 51

carjacked, robbed or maybe even killed. [Id., p. 69]. Petitioner denied seeing a
marked police car. [Id., p. 81].
Petitioner claimed nobody shot at him until he had exited the parking lot. [Id.,
p. 70]. Then someone shot through the window and Petitioner was hit in the arm.
Then, he heard shots fired from behind him. [Id.]. Petitioner claimed he did not know
it was law enforcement shooting. [Id., pp. 76, 78]. Petitioner told the jury three
bullets entered his body; two hit him in the back and one in the arm. [Id., pp. 71].
When he was hit, Petitioner tried to keep going to get away. [Id., p. 74]. But when
his car became disabled, he had to run for help. [Id., p. 75]. He testified that he did
not intend to kill anyone with his car. [Id., pp. 77-78].
Petitioner testified that he had never seen the cocaine and denied that it was
in his car. [Id., pp. 76-80]. After he was shot, there was blood everywhere in the car,
he testified that it was possible the police put his blood on the bag of cocaine. [Id.,
p. 90].
Petitioner was found guilty of trafficking in cocaine, five counts of aggravated
assault (a lesser included offense of attempted second degree murder), and five
counts of aggravated assault on a law enforcement officer with a deadly weapon.
[Id., p. 24-28]. The state dismissed the aggravated assault (non-law enforcement)
charges [ECF 35-7, p. 130].
C. Post Verdict
9

Case: 9:l6-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 10 of 51

The court adjudicated Petitioner guilty and sentenced him to a term of 20
years’ imprisonment with a mandatory seven-year minimum for the drug trafficking
charge and consecutive six-year terms on each charge of aggravated assault on a law
enforcement officer. [ECF 34-1, pp. 30-41].
D. Direct Appeal
Petitioner appealed, arguing that (1) the trial court failed to properly instruct
the jury, (2) the trial court failed to sustain his objection to the state’s use of a
peremptory challenge; (3) he could not be convicted under the information by which
he was charged; and (4) the trial court erred by denying his motion to suppress. [ECF
34-1, pp. 43-73]. The appellate court affirmed Petitioner’s conviction. Clairvoyant
v. State, 92 So.3d 839 (Fla. 4th DCA 2012)(table). The court denied his motion for
clarification and written opinion. [ECF 34-1, p. 167].
E. Appellate Habeas
Petitioner filed a petition for writ of habeas corpus in the appellate court
alleging ineffective assistance of appellate counsel. [M, pp. 169-185]. He argued
that counsel was ineffective for failing to properly argue that the court erred in
denying his objection to the state’s use of a peremptory challenge and that the trial
court’s exclusion of the public from the courtroom during voir dire absent
compelling justification was fundamental error. [Id.]. After receiving a response
from the state [Id., pp. 187-223], the appellate court denied the petition. [Id., p. 225].
10

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 11 of 51

F. First Rule 3.850 Motion
Next, Petitioner filed a motion for post-conviction relief pursuant to Fla. R.
Crim. P. 3.850 (“Rule 3.850 motion”) raising five claims for relief. [Id., pp. 227254]. He argued that: (1) counsel was ineffective for failing to move to suppress
evidence found in his car; (2) counsel was ineffective for failing to object to the
introduction of the bag of cocaine based on a broken chain of custody; (3) counsel
was ineffective for failing to object to introduction of the video tape that had been
altered from its original state; (4) counsel was ineffective for failing to investigate
and depose a ballistics expert to challenge the officers’ testimony; and (5) the
sentence was vindictive. [Id.]. The state trial court denied the motion without an
evidentiary hearing by adopting the State’s response as its findings of fact and
conclusions of law. [ECF 34-4, pp. 57-58]. The appellate court affirmed the denial
of the motion. Clairvoyant v. State, 151 So.3d 1261 (Fla. 4th DCA 2014)(table). The
court denied Petitioner’s motion for en banc reconsideration and clarification as well
as his motion for suggestion of certified question. [ECF 34-4, p. 98].
G. Second Appellate Habeas Corpus Petition
Petitioner then filed a second petition for writ of habeas corpus in the appellate
court. [Id., pp. 103-110]. He contended appellate counsel had failed to argue that the
trial court committed fundamental error by failing to instruct the jury under the
correct justifiable use of force statute. [Id.]. The appellate court summarily denied
11

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 12 of 51

the petition. [Id., p. 112].
H. Second Rule 3.850 Motion
Petitioner filed a second Rule 3.850 motion. [Id., pp. 114-154]. This motion
alleged that newly discovered evidence had led Petitioner to Brady2 and Giglio3
violations by the State. [Id.]. He later filed an amendment to this second Rule 3.850
motion adding a claim of trial court error in the jury instructions. [ECF 34-5, p. 227270]. The state trial court denied both the second motion and the amendment, finding
that the motions were untimely and successive. [Id., 282-286]. The denial of the
motions was affirmed. Clairvoyant v. State, 190 So.3d 83 (Fla. 4th DC A
2016)(table). That same day the court warned Petitioner against filing successive
challenges to his conviction. [ECF 34-5, p. 289].
III.

Statute of Limitations and Exhaustion

The state properly concedes that the petition was filed timely. The state
contends that Petitioner has failed to exhaust certain claims in state court. Petitioner
has conceded that Claims 7, 8, 10 and 11 were not presented in state court. [ECF
26]. In addition to these concededly unexhausted claims, the State argues that claims
9 and 15 are procedurally barred because they were only raised in Petitioner’s second
Rule 3.850 which was dismissed as successive and untimely. Petitioner

2 Brady v. Maryland, 373 U.S. 83 (1963).
3 Giglio v. United States, 405 U.S. 150 (1972).

12

Case: 9:l6-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 13 of 51

acknowledges that these claims were summarily denied. With respect to all of his
unexhausted claims, Petitioner argues that his failure to exhaust should be excused
pursuant to the reasoning of Martinez v. Ryan, 566 U.S. 1 (2012).
An applicant’s federal writ of habeas corpus will not be granted unless the
applicant exhausted his state court remedies. 28 U.S.C. § 2254(b), (c). A claim must
be presented to the highest court of the state to satisfy the exhaustion requirement.
See O’Sullivan v. Boerckel, 526 U.S. 838 (1999); Richardson v. Procunier, 762 F.2d
429,430 (5th Cir. 1985). In a Florida non-capital case, this means the applicant must
have presented his claims in a district court of appeal. See Upshaw v. Singletary, 70
F.3d 576, 579 (11th Cir. 1995). The claims must be presented in State court in a
procedurally correct manner. Id.
Moreover, the habeas applicant must have presented the State courts with the
same federal constitutional claim that is being asserted in the habeas petition. “It is
not sufficient merely that the federal habeas petitioner has been through the state
courts ... nor is it sufficient that all the facts necessary to support the claim were
before the state courts or that a somewhat similar state-law claim was made.” Kelley
v. Sec’y, Dep’t of Corr., 377 F.3d 1317 (11th Cir. 2004) (citing Picard v. Connor,
404 U.S. 270, 275-76 (1971); Anderson v. Harless, 459 U.S. 4, 6 (1982)). A
petitioner is required to present his claims to the state courts such that the courts
have the “opportunity to apply controlling legal principles to the facts bearing upon
13

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 14 of 51

[his] constitutional claim.” Picard at 275-77. To satisfy this requirement, “[a]
petitioner must alert state courts to any federal claims to allow the state courts an
opportunity to review and correct the claimed violations of his federal rights.”
Jimenez v. Fla. Dep’t of Corr., 481 F.3d 1337 (11th Cir. 2007) (citing Duncan v.
Henry, 513 U.S. 364, 365 (1995)). “Thus, to exhaust state remedies fully the
petitioner must make the state court aware that the claims asserted present federal
constitutional issues.” Snowden v. Singletary, 135 F.3d 732, 735 (11th Cir. 1998).
Unexhausted claims may be treated “as procedurally defaulted, even absent a
state court determination to that effect, if it is clear from state law that any future
attempts at exhaustion would be futile.” Bailey v. Nagle, 172 F.3d 1299, 1305 (11th
Cir. 1999). A procedural-default bar in federal court can arise in two ways: (1) when
i

a petitioner raises a claim in state court and the state court correctly applies a
procedural default principle of state law; or (2) when the petitioner never raised the
[federal] claim in state court, and it is obvious that the unexhausted claim would now
be procedurally barred in state court. Bailey at 1302-03. If Petitioner were to return
to the state courts, his claims of trial court error would be treated there as
procedurally defaulted. See Mills v. Dugger, 574 So.2d 63, 65 (Fla. 1990) (Habeas
corpus is not to be used for obtaining additional appeals of issues which were raised,
or should have been raised, on direct appeal or which were waived at trial or which
could have, should have, or have been, raised in prior postconviction filings). Any
14

Case: 9:l6-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 15 of 51

attempt by the petitioner to return to state court to raise his ineffective assistance of
counsel claims through a motion for post-conviction relief would be futile as any
such motion would be both successive and time-barred. See Fla. R. Crim. P. 3.850.
Under the doctrine of procedural default, “[i]n all cases in which a state
prisoner has defaulted his federal claims in state court pursuant to an independent
and adequate state procedural rule, federal habeas review of the claims is barred
unless the prisoner can demonstrate cause for the default and actual prejudice as a
result of the alleged violation of federal law, or demonstrate that failure to consider
the claims will result in a fundamental miscarriage of justice.” Coleman v.
Thompson, 501 U.S. 722, 750 (1991)(internal quotations omitted). Here, Petitioner
seeks to excuse the procedural default to his claims by alleging that he was pro se
when he prepared his initial Rule 3.850 Motion, implicating Martinez. As will be
discussed herein, the petitioner cannot establish prejudice to overcome the
procedural bar.
In Martinez the Supreme Court expanded upon what “cause” may excuse a
procedural default, determining that when a state court claim of “ineffective
assistance of trial counsel must be raised in an initial-review collateral proceeding,
a procedural default will not bar a federal habeas court from hearing a substantial
claim of ineffective assistance at trial if, in the initial-review collateral proceeding,
there was no counsel or counsel in that proceeding was ineffective.” Martinez, 566
15

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 16 of 51

U.S. at 17. Therefore, relief is available if (1) state procedures make it virtually
impossible to actually raise ineffective assistance of trial counsel claims on direct
appeal; and (2) the Petitioner’s state collateral counsel was ineffective for failing to
raise ineffective assistance of trial counsel claims in the state proceedings. See
Lambrix v. Sec’y, Fla. Dep’t ofCorr., 756 F.3d 1246, 1261 n.31 (11th Cir. 2014).
“To overcome the default, a prisoner must ... demonstrate that the underlying
ineffective assistance of trial counsel claim is a substantial one, which is to say that
the prisoner must demonstrate that the claim has some merit. Martinez, 566 U.S. at
14.
A petitioner may also avoid the procedural default “if he can establish that a
fundamental miscarriage of justice, the continued incarceration of one who is
actually innocent, otherwise would result.” Ward v. Hall, 592 F.3d 1144,1157 (11th
Cir. 20l0); see also, McQuiggen v. Perkins, 569 U.S. 383, 387 (2013). This
exception requires the petitioner to demonstrate actual innocence, not just legal
innocence. See Rozzelle v. Sec’y, Fla. Dep’t ofCorr., 672 F.3d 1000,1011 (11th Cir.
2012). “Only if [Petitioner] can meet the requirements for proving his actual
innocence will he ‘then be entitled to have his defaulted claim’... considered on its
merits.” Id. at 1285.
IV.

Standard of Review

A prisoner in state custody may not be granted a writ of habeas corpus for any
16

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 17 of 51

claim that was adjudicated on the merits in state court unless the state court’s
\

decision was (1) “contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States,”
or (2) “based on an unreasonable determination of the facts in light of the evidence
presented” to the State court. 28 U.S.C. § 2254(d)(1), (2); see Williams v. Taylor,
529 U.S. 362, 405-06 (2000); Fugate v. Head, 261 F.3d 1206, 1215-16 (11th Cir.
2001).
A state court decision is “contrary to” or an “unreasonable application of ’ the
Supreme Court's clearly established precedent within the meaning of § 2254(d)(1)
only if the state court applies a rule that contradicts the governing law as set forth in
Supreme Court case law, or if the state court confronts a set of facts that are
materially indistinguishable from those in a decision of the Supreme Court and
nevertheless arrives at a result different from Supreme Court precedent. Brown v.
Payton, 544 U.S. 133, 141,(2005); Williams, 529 U.S. at 405-06. In the habeas
context, clearly established federal law refers to the holdings of the Supreme Court's
decisions as of the time of the relevant state-court decision. Hall v. Head, 310 F.3d
683, 690 (11th Cir. 2002) (citing Williams, 529 U.S. at 412). However, in
adjudicating a petitioner’s claim, the state court does not need to cite Supreme Court
decisions and the state court need not even be aware of the Supreme Court cases.
See Early v. Packer, 537 U.S. 3, 8 (2002); Parker v. Sec’y, Dep’t ofCorr., 331 F.3d
17

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 18 of 51

764, 775-76 (11th Cir. 2003).
So long as neither the reasoning nor the result of the state court decision
contradicts Supreme Court decisions, the state court’s decision will not be disturbed.
Id. Further, a federal court must presume the correctness of the state court's factual
findings unless the petitioner overcomes them by clear and convincing evidence. See
28 U.S.C. § 2254(e)(1); Putman v. Head, 268 F.3d 1223, 1241 (11th Cir. 2001).
More recently, the U.S. Supreme Court in Wilson v. Sellers,

U.S.

.138

S. Ct. 1188, i 194 (2018), concluded there is a "look through” presumption in federal
habeas corpus law, as silence implies consent. See also Keman v. Hinojosa, _ U.S.
, 136 S. Ct. 1603, 1605-1606 (2016)(per curiam)(adopting the presumption that
silence implies consent but refusing to impose an irrebuttable presumption). Where
the state court's adjudication on the merits of a claim is unaccompanied by an
explanation, the U.S. Supreme Court instructs that:
[T]he federal court should 'look through' the unexplained decision to
the last related state-court decision that does provide a relevant
rationale. It should then presume that the unexplained decision adopted
the same reasoning.
Wilson v. Sellers, 138 S. Ct. at 1192. In other words, if the last state court to decide
a prisoner's federal claim provides an explanation for its merits-based decision in a
reasoned opinion, "a federal habeas court simply reviews the specific reasons given
by the state court and defers to those reasons if they are reasonable.” Id. However,
18

Case: 9J.6-cv-80696.-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 19 of 51

if the relevant state-court decision on the merits is not accompanied by a reasoned
opinion, because it was summarily affirmed or denied, a federal court "should ‘look
through’ the unexplained decision to the last state-court decision that does provide a
relevant rationale.” Id.
The presumption, however, may be rebutted by showing the state court’s
adjudication most likely relied on different grounds than the lower state court's
reasoned decision, such as persuasive alternative grounds briefed or argued to the
higher court or obvious in the record. Id. at 1192,1196. "Where there are convincing
grounds to believe the silent record had a different basis for its decision than the
analysis followed by the previous court, the federal habeas court is free, as we have
said, to find to the contrary.” Id. at 1197.
Moreover, the Supreme Court repeatedly has held that “[t]he petitioner carries
the burden of proof’ and that the § 2254(d)(1) standard is a high hurdle to overcome.
See Bobby v. Dixon, 565 U.S. 23, 24 (2011)(quoting Richter, 560 U.S. at 102-103
(quotation marks omitted)); Cullen v. Pinholster, 563 U.S. 170, 180 131 (2011)
(acknowledging that § 2254(d) places a difficult burden of proof on the petitioner);
Renico, 559 U.S. at 111 (“AEDPA prevents defendants - and federal courts - from
using federal habeas corpus review as a vehicle to second-guess the reasonable
decisions of state courts.”); Woodford v. Visciotti, 537 U.S. 19, 24 (2002)(§ 2254(d)
“demands that state-court decisions be given the benefit of the doubt.”); See also
19

«r ' '

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 20 of 51

Rimmer v. Sec'y, Fla. Dep't of Corr., 876 F.3d 1039, 1053 (11th Cir. 2017)(opining
that to reach the level of an unreasonable application of federal law, the ruling must
be objectively unreasonable, not merely wrong or even clear error).
Thus, state court decisions are afforded a strong presumption of deference
even when the state court adjudicates a petitioner's claim summarily—without an
accompanying statement of reasons. Richter, 560 U.S. at 96-100 (concluding that
the summary nature of a state court's decision does not lessen the deference that it is
due); Gill v. Mecusker, 633 F.3d 1272, 1288 (11th Cir. 2011) (acknowledging the
well-settled principle that summary affirmances are presumed adjudicated on the
merits and warrant deference, citing Richter, 560 U.S. at 100-101 and Wright v. Sec'y
for the Dep’t ofCorr., 278 F.3d 1245, 1254 (11th Cir. 2002)). See also Renico, 559
U.S. at 773 (“AEDPA ... imposes a highly deferential standard for evaluating statecourt rulings ... and demands that state-court decisions be given the benefit of the
doubt.” (citations and internal quotation marks omitted)).
Because the "AEDPA erects a formidable barrier to federal habeas relief for
prisoners whose claims have been adjudicated in state court,” Burt v. Titlow, 571
U.S. 12, 19 (2013), federal courts can "grant habeas relief only when a state court
blundered in a manner so ‘well understood and comprehended in existing law’ and
‘was so lacking in justification’ that ‘there is no possibility fair-minded jurists could
disagree.’” Tharpe v. Warden, 834 F.3d 1323,1338 (11th Cir. 2016). This standard
20

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 21 of 51

is "meant to be” a "difficult” one to meet. See Harrington v. Richter, 562 U.S. 86,
102 (2011).
The petitioner raises a several claims of ineffective assistance of counsel. The
United States Supreme Court clearly established the law governing claims of
ineffective assistance of counsel in Strickland v. Washington, 466 U.S. 668 (1984).
Strickland requires a criminal defendant to show that: (1) counsel’s performance was
deficient and (2) the deficiency prejudiced him. Id. at 690. As to the first prong,
deficient performance means performance outside the wide range of professionally
competent assistance. Id. The judiciary’s scrutiny of counsel’s performance is highly
deferential. Id. at 689.
As to the second prong, a defendant establishes prejudice by showing that, but
for counsel’s deficient performance, there is a reasonable probability the outcome of
the proceedings would have been different. Id. at 694. A reasonable probability is a
probability sufficient to undermine confidence in the outcome of the proceedings.
Id. In the context of a guilty plea, the second prong of the Strickland test requires a
showing that but for counsel's errors, the movant would not have pleaded guilty and
would have insisted upon going to trial. Hill v. Lockhart, 474 U.S. 52 (1985).
A defendant must satisfy both the deficiency and prejudice prongs set forth in
Strickland to obtain relief on an ineffective assistance of counsel claim. Failure to
establish either prong is fatal and makes it unnecessary to consider the other.
21

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 22 of 51

Strickland, 466 U.S. at 697.
Combining AEDPA’s habeas standard and Strickland’s two-pronged test
provides the relevant inquiry in this case. To obtain habeas relief, a petitioner must
show the state court “applied Strickland to the facts of his case in an objectively
unreasonable manner” when it rejected his claims of ineffective assistance of
counsel. Bell v. Cone, 535 U.S. 685, 699 (2002).
V. Discussion
The third amended petition presents the following fifteen claims:
1.

The trial court failed to properly instruct the jury on his defense
of justifiable use of force.

2.

The trial court erred in failing to sustain Petitioner’s race-based
peremptory challenge.

3.

The information was insufficient to support Petitioner’s
conviction.

4.

The trial court erred in denying Petitioner’s motion to suppress.

5.

Counsel was ineffective in failing to thoroughly investigate and
properly argue grounds to suppress evidence.

6.

Counsel was ineffective in failing to move to dismiss the charges
or otherwise suppress evidence based upon probable tampering.

7.

Counsel was ineffective in failing to impeach state witnesses
with evidence establishing probable tampering.

8.

Counsel was ineffective in failing to request a limiting
instruction on the use of prior convictions.

9.

Counsel was ineffective in failing to object to inapplicable jury
instructions regarding Petitioner being engaged in unlawful
activity.
22

Case: 9:l6-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

10.

Counsel was ineffective in failing to object to the prosecutor’s
misstatement of the law.

11.

Counsel was ineffective in waiving the defense of justifiable use
of non-deadly force.

12.

Appellate counsel was ineffective in failing to argue fundamental
error in the jury instructions.

13.

Counsel was ineffective in failing to investigate a ballistics
expert to support the defense of justifiable use of force.

14.

Counsel was ineffective in failing to object to introduction of
altered evidence.

15.

Newly discovered evidence revealed that counsel was ineffective
in failing to investigate and discover a Brady and Giglio
violation.

Page 23 of 51

A. Failure to Properly Instruct Jury
Petitioner contends that he was denied a fair trial where the trial court failed
to properly instruct the jury regarding his defense of justifiable use of force. He
argues that trial court should not have included the phrase “was not engaged in an
unlawful activity” when instructing the jury on the duty to retreat. He also argues
that the trial court erred in its instruction regarding “presumption of fear.”
This claim was raised on direct appeal of Petitioner’s conviction. [ECF 34-1,
pp. 59-63]. In raising this claim in state court, Petitioner relied solely on state law.
[Id.]. The appellate court did not issue a written opinion.
This claim does not merit federal habeas relief. A jury instruction is not judged
in isolation but must be considered in the context of the instructions as a whole and
23

Case: 9:16-cv-80696-KAM

Document#: 41 Entered on FLSD Docket: 11/06/2019

Page 24 of 51

the trial record. See Estelle v. McGuire, 502 U.S. 62, 72 (1991). A defective jury
charge raises an issue of constitutional dimension only if it renders the entire trial
fundamentally unfair. See Carrizales v. Wainwright, 699 F.2d 1053,1055 (11th Cir.
1983). Here the jury instruction did not render Petitioner’s trial unfair. In addition to
the instructions on presumption of fear and being engaged in unlawful activity, the
jury was also instructed that:
The presumption of reasonable fear of imminent death or great bodily
harm does not apply if.. .the person against whom the defensive force
is used is a law enforcement officer who enters or attempts to enter a
vehicle in the performance of his or her official duties, and the officer
identified himself or herself in accordance with any applicable law, or
the person using the force knew or reasonably should have known that
the person entering or attempting to enter was a law enforcement
officer.
[ECF 35-7, p. 69-70]. The jury convicted Petitioner of aggravated assault on a law
enforcement officer. This conviction necessarily required the jury to find that
Petitioner was aware that the men pointing guns at him and attempting to stop him
were police officers. Since there was no presumption of reasonable fear of death or
great bodily injury because he knew the men were law enforcement officers, any
error in the instructions did not render Petitioner’s trial fundamentally unfair. This
claim should be denied as the state court’s decision was not contrary to, or an
unreasonable application of, controlling Supreme Court precedent.
B. Peremptory Challenge
Petitioner contends that he was denied a right to a jury of his peers, due
24

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 25 of 51

process and a fair trial when the trial court failed to sustain his objection to the State’s
use of a peremptory challenge of a prospective juror. He argues that the State
exercised a peremptory challenge against a prospective juror for a racially
discriminatory purpose.
This claim was raised on direct appeal of Petitioner’s conviction. [ECF 34-1,
p. 63-65]. In arguing this claim on direct appeal Petitioner relied upon a Florida case,
State v. Melbourne, 679 So.2d 759 (Fla. 1996), to argue that the state court
improperly Sustained the state’s use of a peremptory challenge. [Id.].
In order to evaluate claims alleging the improper exercise of peremptory
challenges based on racial bias, the standard established by the Supreme Court in
Batson v. Kentucky, 476 U.S. 79 (1986) must be reviewed. Batson requires that the
defendant establish a prima facie case that the prosecutor exercised his peremptory
challenge on the basis of race and/or gender before the prosecutor is required to
explain the reason for the challenge. Id. at 96-97; Bui v. Haley, 321 F.3d 1304,131314 (11th Cir. 2003). To establish a prima facie case, the defendant must prove that
the venire member “is a member of a cognizable racial group and that the prosecutor
has exercised peremptory challenges to remove from the venire members of the
defendant’s race” and “these facts and any other relevant circumstances raise an
inference that the prosecutor used that practice to exclude the venire [member] from
the [panel] on account of [his] race.” Batson, 476 U.S. at 96 (citation omitted); Bui,
25

Case: 9:l6-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 26 of 51

321 F.3d at 1313.
The burden then shifts to the state to rebut the defendant’s prima facie case
by offering race-neutral explanations for its challenges. Batson, 476 U.S. at 97. The
state’s proffered explanation at this stage need not be persuasive or even plausible.
Purkett v. Elem, 514 U.S. 765, 768 (1995). The issue in this step of Batson is the
facial validity of the reason given by the prosecutor. Id. Therefore, the reason will
be deemed race-neutral unless discriminatory intent inheres in the prosecutor’s
explanation. See Hernandez v. New York, 500 U.S. 352, 360 (1991). A legitimate
reason for exercising the challenge is not required to make sense; it need only be one
that does not deny equal protection. Purkett, 514 U.S. at 768-69. Throughout the
process, the ultimate burden of persuasion regarding racial motivation rests with,
and does not shift from, the defendant. Id. Once the prosecutor articulates a race
neutral reason for the strike, the third step of Batson requires the trial court to
determine if the defendant has established purposeful discrimination. Batson, 476
U.S. at 98.
Here the state court sustained the State’s peremptory challenge to the juror by
applying the Florida standard under Melbourne v. State, 679 So.2d 759 (Fla. 1996).
Under Melbourne:
A party objecting to the other side's use of a peremptory challenge on
racial grounds must: a) make a timely objection on that basis, b) show
that the venireperson is a member of a distinct racial group, and c)
request that the court ask the striking party its reason for the strike. If
26

Case: 9:16-cv-80696-KAM

Document.#: 41 Entered on FLSD Docket: 11/06/2019

Page 27 of 51

these initial requirements are met (step 1), the court must ask the
proponent of the strike to explain the reason for the strike.
At this point, the burden of production shifts to the proponent of the
strike to come forward with a race-neutral explanation (step 2). If the
explanation is facially race-neutral and the court believes that, given all
the circumstances surrounding the strike, the explanation is not a
pretext, the strike will be sustained (step 3). The court's focus in step 3
is not on the reasonableness of the explanation but rather its
genuineness. Throughout this process, the burden of persuasion never
leaves the opponent of the strike to prove purposeful racial
discrimination.
Melbourne v. State, 679 So. 2d 759, 764 (Fla. 1996). In applying this standard
the state court complied with the dictates of Batson. During jury selection
prospective juror Wong indicated that some friends he grew up with had been
arrested. [ECF 35-2, p. 142]. When asked by the prosecutor if they had been treated
fairly he responded, “it’s a 50-50.” [Id.]. Defense counsel later asked Wong to
expand on his comment. [ECF 35-3, p. 89]. He explained that he felt it was different
in New York where he felt pressure from police and felt like it was a police state.
[Id.]. He expressed that he had respect for the Palm Beach Sheriffs. [Id.].
The State later exercised a peremptory strike against Wong. [Id., p. 134].
Petitioner objected to the strike and the court recognized that Wong was Asian and
a minority. [Id.]. The court asked the State for a race neutral reason for striking
Wong. [Id., p. 135]. The State responded, “[Defense counsel] asked him to expand
upon his answer of feeling 50-50 towards police officers, he said that up north he
27

Case: 9:16-cv-80696-KAM

Document#: 41 Entered on FLSD Docket: 11/06/2019

Page 28 of 51

felt that he was living in a police state.” [Id.]. Defense counsel pointed out that Wong
had stated that he had respect for the Palm Beach County Sheriff’s Office and argued
that the State’s reason for the peremptory strike was not race-neutral. [Id.]. The court
granted the peremptory strike finding the State’s reasoning was genuine. [Id., pp.
135-136].
The court considered Petitioner’s objection, required the state to provide a race
neutral reason for the strike and then found the strike to be genuine. There has been
no showing that the state utilized its strike in a discriminatory manner. This claim
should be denied as the state court’s ruling on the objection to the peremptory
challenge was not an unreasonable application of Batson.
C. Defective Information
Petitioner contends that the amended information charging him with both
attempted second-degree murder and aggravated assault of a law enforcement officer
precluded the jury from convicted him of a lesser included offense of aggravated
assault and aggravated assault on a law enforcement officer. He further argues that
after the jury convicted him of aggravated assault as a lesser included offense of
attempted second degree murder that the State was collaterally estopped from using
that verdict to convict him of aggravated assault on a law enforcement officer. He
also argues that the jury was confused by the charges and thus was prevented from
exercising its pardon power on the aggravated assault on a law enforcement charges.
28

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 29 of 51

This claim was also raised on direct appeal. He argued that the information
precluded the jury from exercising its pardon power due to confusion. He also argued
that the state was collaterally estopped under principles of double jeopardy from
using the convictions for aggravated assault to also convict him of aggravated assault
on a law enforcement officer. The claim was rejected without a written opinion.
This claim does not merit relief. As argued here, Petitioner contends that the
information confused the jury and prevented it from exercising its jury pardon
power. He speculates that the jury did not find him guilty of attempted second degree
murder because it exercised its jury pardon power. Relying upon this speculation he
then contends that because the jury found him guilty of the lesser offense of
aggravated assault they could not find him not guilty of aggravated assault on a law
enforcement officer and so were compelled to find him guilty of those charges. This
claim is based on nothing more than rank speculation and it should be denied.
Petitioner also argues that the state was collaterally estopped from using the
elements of aggravated assault as found by the jury in counts 1 through 5 to establish
the crime of aggravated assault on a law enforcement officer. He seems to argue that
his conviction for aggravated assault on a law enforcement officer was a violation
of double jeopardy. This argument ignores the fact that the state dismissed the
aggravated assault charges found in counts 2 through 6 and Petitioner was only
adjudicated guilty of the aggravated assault on a law enforcement charges.
29

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 30 of 51

To the extent that Petitioner argues that the state was collaterally estopped
from using the jury verdict on counts 2 through 7 to prove the charges in counts 7
through 11, he misconstrues the doctrine of collateral estoppel. Collateral estoppel
“means simply that when an issue of ultimate fact has once been determined by a
valid and final judgment, that issue cannot again be litigated between the same
parties in any future lawsuit.” Ashe v. Swenson, 397 U.S. 436,443 (1970). Here, the
ultimate fact was determined within a single proceeding. The jury verdict was based
on the same factual finding that supported its guilty verdicts for both aggravated
assault and aggravated assault on a law enforcement officer. Under no construction
of collateral estoppel would the State have been precluded from relying upon an
issue of ultimate fact found with this single criminal proceeding. This claim should
be denied.
D. Denial of Motion to Suppress
Petitioner contends that his rights to due process and a fair trial were denied
when the trial court denied the motion to suppress. He argues that the police did not
have probable cause to arrest him and that the search warrant was the product of an
illegal arrest.
Petitioner presented this claim on direct appeal. He argued that the informant
was not reliable and that the police did not corroborate the information provided, so
the police lacked probable cause to arrest him. As a result, the seized cocaine was
30

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 31 of 51

the fruit of the poisonous tree and should have been suppressed. He also argued that
the affidavit that was used to support the application for a search warrant misled the
magistrate judge. The appellate court denied this claim with a written opinion.
Petitioner’s argument is based on an alleged Fourth Amendment violation.
However, “when ‘the State has provided an opportunity for full and fair litigation of
a Fourth Amendment claim, a state prisoner may not be granted federal habeas
corpus relief on the ground that evidence obtained in an unconstitutional search and
seizure was introduced at his trial.’ ” Peoples v. Campbell, 377 F.3d 1208, 1224
(11th Cir. 2004) (quoting Stone v. Powell, 428 U.S. 465, 494 (1976)). “For a claim
to be fully and fairly considered by the state courts, where there are facts in dispute,
full and fair consideration requires consideration by the fact-finding court, and at
least the availability of meaningful appellate review by a higher state court.” Tukes
v. Dugger, 911 F.2d 508, 513-14 (11th Cir. 1990) (citation omitted).
Here, Petitioner had a suppression hearing where the trial court reviewed the
search warrant and heard argument from counsel. The trial court determined that the
police officers possessed probable cause to arrest Petitioner and to support the
issuance of the search warrant. As the fourth point raised in his direct appeal,
Petitioner argued that the trial court erred in denying the motion to suppress. [ECF
34-1, p. 69-72]. The appellate court denied the claim. Accordingly, Petitioner’s
Fourth Amendment claim was fully and fairly considered both by the fact-finding
31

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 32 of 51

court and the state appellate court. Thus, Petitioner is barred from making this claim
as it is not appropriate for federal habeas review.
E. Counsel was Ineffective for Failing to Conduct an Adequate Investigation
and Properly Argue the Motion to Suppress
Petitioner contends that counsel was ineffective in pursuing the motion to
suppress. He alleges that the confidential informant denied that he had called to
arrange a drug deal and had not provided a tip to the police. Petitioner claims that he
informed counsel of this information, but counsel failed to include it in the motion
to suppress. In support of this allegation he has provided a purported letter from the
confidential informant to the State Attorney disavowing that he provided a tip to the
police.
In the motion for post-conviction relief, Petitioner argued that counsel was
ineffective for failing to move to suppress the fruits of the illegal stop and seizure.
He contended that informant was not reliable and that the police did not corroborate
the informant’s information prior to arresting him. He also alleged that the informant
had sent a letter to the prosecutor stating he was unhappy with his deal and that he
had exculpatory information.
The state trial court denied this claim by adopting the reasoning provided in
the state’s response. The state had argued that Petitioner could not establish deficient
performance under Strickland because counsel had filed a detailed motion to
32

Case: 9:16-cv-80696-KAM

Document,#: 41 Entered on FLSD Docket: 11/06/2019

Page 33 of 51

suppress which was denied and the denial was affirmed on appeal. [ECF 34-1, p.
284].

This claim does not merit relief. This claim is premised upon Petitioner’s
allegation that the confidential informant recanted and claimed that he had never
assisted the police by providing a tip about Petitioner selling cocaine. This allegation
is derived from a letter purportedly written by the confidential informant addressed
to the prosecution. [ECF 26, pp. 33-34]. The informant’s letter was disclosed by the
prosecution to counsel for Petitioner prior to trial but after the motion to suppress
had been filed.
Review of this letter reveals that Petitioner has misconstrued its contents. The
letter does not support Petitioner’s claim that the confidential informant denied
setting up a drug deal. In the letter, the confidential informant states, “When I set
up that drug deal with Jethro Clairvoyant, I was promise [sic] no conviction for
the small amount of drugs I had on me, plus they would talk too [sic] your office
about a case I had pending.” [Id.] (emphasis added). The informant complained that
he had not been rewarded for his cooperation and asked that the prosecutor file
something on his behalf. [Id.]. He expressed his fear of Petitioner, but was willing
to put aside his fear and testify for a reduced sentence. [Id.].
Nothing in the letter would have led counsel to include a claim that the
confidential informant denied providing a tip to the police. In fact, the letter clearly
33

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 34 of 51

states that the confidential informant did participate in arranging for the police to
meet Petitioner for a drug deal. Since the letter rebuts Petitioner’s claim, he cannot
establish either deficient performance or prejudice. The state court’s denial of this
claim did not involve an unreasonable application of Strickland. This claim should
be denied.
F. Counsel was Ineffective for Failing to Move to Dismiss the Charges or
Suppress the Evidence Base Upon “Probable Tampering.”
Petitioner contends that counsel was ineffective for failing to move to dismiss
the charges or exclude evidence. He alleges that the police tampered with evidence
because an internal affairs report noted that approximately Vi kilo of cocaine was
found in the passenger compartment of Petitioner’s car while the evidence at trial
established that only XA kilo of cocaine was found. He concludes that the police must
have tampered with the evidence and therefore it should have been suppressed.
This claim was presented in the Rule 3.850 motion in state court. [ECF 34-1,
pp. 231-232], He cited the same internal affairs memorandum to support his claim
of tampering.
The state court adopted the state’s reasoning when it denied this claim. The
state had argued that counsel had objected to the introduction of the cocaine. The
state also noted that the memorandum reflected that “[a] search subsequent to arrest
revealed approximately Vi kilo of white powder substance, (believed to be cocaine)
34

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 35 of 51

in the front passenger compartment of the Mercedes Benz [Petitioner] was
operating.” [Id, p. 285]. The state concluded that Petitioner could not meet the
Strickland standard to establish that counsel was ineffective.
The state court properly applied Strickland to find that this claim was without
merit. Petitioner’s entire claim rests upon an interoffice memorandum of the city of
Boynton Beach [ECF 26, p. 36-37] that he claims conflicts with the evidence at trial.
According to Petitioner this memorandum establishes that law enforcement
tampered with the cocaine that was found in his vehicle. The only discrepancy he
points to is the discrepancy in the drug quantity. [Id., p. 37]. This memorandum was
prepared as part of the investigation of the police shooting. The reference to the
cocaine is seemingly made in passing and there is no indication that the cocaine had
actually been weighed at the time the memorandum was filed. The amount of
/

cocaine was simply not relevant to the investigation of the police shooting. Counsel
cannot be ineffective for failing to pursue a meritless claim. See Chandler v. Moore,
240 F.3d 907, 917 (11th Cir. 2001).
G. Counsel was Ineffective for Failing to Impeach State Witnesses with
Evidence of Alleged Tampering
Petitioner expands upon his prior claim by arguing that counsel should have
impeached the state chemist with the alleged evidence of tampering. He contends
that counsel could have establish probable tampering and gross police misconduct
35

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 36 of 51

that would have lead the jury to believe Petitioner’s testimony resulting in an
acquittal.
Petitioner has acknowledged that he did not exhaust this claim in state court.
He argues that he can overcome the procedural bar through Martinez v. Ryan. The
state has argued that Petitioner cannot overcome the procedural bar because counsel
was not ineffective under the Strickland standard.
Again, Petitioner’s claim of tampering is speculative and not relevant to the
question of guilt. He has failed to raise a substantial claim of ineffective assistance
of counsel as required by Martinez to overcome the procedural default of this
unexhausted claim. This claim should be dismissed as unexhausted.
H. Counsel’s Failure to Request a Limiting Instruction on Use of Prior
Convictions
Petitioner contends that counsel was ineffective for failing to request a
limiting instruction advising the jury that his prior convictions could only be used in
assessing his credibility and not as substantive evidence of guilt. He alleges that the
prosecutor’s argument encouraged the jury to rely on his status as a felon. He argues
that if such an instruction had been given there is a reasonable probability that he
would have been acquitted.
This claim has not been exhausted in state court. The state argues that it is
procedurally barred because Petitioner has not raised a substantial claim of
36

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 37 of 51

ineffective assistance of counsel in order to warrant consideration under Martinez.
Under Florida law ‘[w]hen evidence that is admissible as to one party for one
purpose but inadmissible as to another party or for another purpose, is admitted, the
court, upon request, shall restrict such evidence to its proper scope and so inform the
jury at the time it is admitted.” Fla. Stat. § 90.107. Thus, under Florida law an
instruction regarding the purpose of the admission of Petitioner’s prior convictions
could have been requested.
Federal courts have consistently determined, however, that a decision by
counsel not to request a limiting instruction can be a sound tactical decision not to
emphasize the prior conviction before the jury. See e.g., Ashe v. Jones, 2000 WL
263342 at *6 (6th Cir. Feb. 29, 2000) (stating that counsel may have decided, as part
of a reasonable trial strategy, not to request an instruction limiting the jury's
consideration of the prior bad acts evidence based on the belief that such an
instruction would bring undue attention to the other acts); Ferguson v. Knight, 809
F.2d 1239, 1243 (6th Cir. 1987) (limiting instructions “inevitably invite the jury's
attention to matters the defendant normally prefers not to emphasize”); Stamps v.
Rees, 834 F.2d 1269, 1276 (6th Cir. 1987) (failure to request jury admonition
concerning permissible use of evidence of prior convictions did not constitute
ineffective assistance “as it is quite evident that... counsel simply wanted to get past
the prior convictions as quickly as possible without bringing undue attention to
37

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 38 of 51

them”); Robins v. Fortner, 698 F.3d 317, 337-338 (6th Cir. 2012) (finding no
ineffectiveness because counsel “may have ... made a tactical choice not to provide
curative jury instructions to avoid drawing further attention to the fact that the
pictures were mug shots”).
Since a reasonable attorney might have avoided reinforcing the fact of prior
convictions Petitioner cannot establish that counsel’s performance was deficient.
Furthermore, any claim of prejudice is entirely speculative. It is impossible to say
that if a limiting instruction had been given that the outcome of the trial would have
been different. In the absence of a substantial claim of ineffective assistance of
counsel, Petitioner cannot overcome his procedural default of this claim. This claim
should therefore be dismissed as unexhausted.
I. Counsel’s Failure to Object to Inapplicable Jury Instruction
Petitioner contends that counsel was ineffective for failing to object to the jury
instruction on justifiable use of force. He argues that if counsel had objected, the
proper instruction would have been given and he would have been acquitted.
This claim was raised in Petitioner’s second motion for post-conviction relief
which was denied as successive. Petitioner acknowledges that this claim has not
been exhausted. The state has not argued lack of exhaustion but argues that the
record refutes this claim.
This claim is unexhausted and the state has not expressly waived exhaustion.
38

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 39 of 51

In any event, Petitioner’s claim is not sufficient to overcome the procedural bar as
he has not presented a substantial claim of ineffective assistance of counsel. Even if
the jury had been instructed as Petitioner argues, the evidence overwhelmingly
established that his use of force was not justifiable where he was convicted of
aggravated assault of law enforcement officers. Under Florida law, a person is not
justified in the use of force to resist arrest by a law enforcement officer or to resist a
law enforcement officer who is engaged in the execution of a legal duty if the officer
is acting in good faith and is known to be, or reasonably appears, to be a law
enforcement officer. See Fla. Stat. § 776.051. “Section 776.051(1) forecloses the
defense of justifiable use of force by a defendant who resists an arrest by a law
enforcement officer, regardless of the legality of the arrest.” Tillman v. State, 934
So. 2d 1263,1269 (Fla. 2006).4 The jury was so instructed. [ECF 35-7, p. 67]. Given
the ample evidence that the officers were dressed in uniform and identified
themselves as police, there is no reasonable probability that the outcome at trial
would have been different if the jury had been instructed that Petitioner was not
precluded from using force because he was engaged in unlawful activity. This claim
should be dismissed as unexhausted.

4 The court in Tillman held that the plain meaning of the statue limited it to arrest situations.
Tillman at 1269. Subsequent to the Tillman decision, the Florida Legislature expanded § 776.051
to add that a person is not justified in the use of force “to resist a law enforcement who is
engaged in the execution of a legal duty.” 2008 Ha. Sess. Law Serv. Ch. 2008-67 (H.B. 61)

39

Case: 9:16-cv-80696-KAM

Document#: 41 Entered on FLSD Docket: 11/06/2019

Page 40 of 51

J. Counsel’s Failure to Object to Prosecutor’s Misstatement of the Law
Petitioner contends that counsel was ineffective for failing to object to the
prosecutor’s misstatement of the law on justifiable use of force when the prosecutor
told the jury that the defense was inapplicable because Petitioner was engaged in the
unlawful activity of trafficking in cocaine. He argues that counsel’s failure to object
allowed the jury to discount his defense. He believes that if counsel had objected, he
would have been acquitted.
Petitioner acknowledges that this claim was not exhausted in state court. The
state argues that Petitioner cannot overcome the procedural bar because he has failed
to present a substantial claim of ineffective assistance of counsel.
Again, Petitioner has failed to present a substantial claim of ineffective
assistance of counsel to overcome his procedural default. The prosecutor’s argument
tracked the jury instruction. The jury was instructed “[i]f the defendant was not
engaged in an unlawful activity” and otherwise met the conditions of self defense
then he had a right to stand his ground and meet force with force. [ECF 35-7, p. 68].
The prosecutor quoted the instruction, then argued that because Petitioner was
engaged in trafficking in cocaine he was not entitled to the defense. [Id., p. 18].
Counsel was not ineffective for failing to object as any objection would have been
overruled. Furthermore, as discussed above Petitioner cannot establish prejudice
because he was not entitled to the defense because he was resisting law enforcement
40

Ca$e: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 41 of 51

officer in the exercise of a lawful duty. This claim should be dismissed as
unexhausted.
K. Counsel’s Waiver of the Defense of Justifiable Use of Non-Deadly Force
Petitioner contends that counsel waived the defense of justifiable use of nondeadly force. He argues that if the jury had been instructed on this defense the jury
may have found he used non-deadly force and was therefore justified in his actions
resulting in an acquittal. Petitioner’s claim relies on his assertion that a motor vehicle
is not a deadly weapon.
This claim was also not exhausted in state court. The state argues that
Petitioner has not presented a substantial claim of ineffective assistance of counsel
to overcome the procedural bar.
Petitioner posits that the jury “may very well have found the force used was
non-deadly rather than deadly.” The question of whether the use of a motor vehicle
constitutes deadly or nondeadly force can be a jury question under Florida law. See
Cooper v. State, 573 So.2d 74 (Fla. 4th DCA1990) (whether car traveling at a decent
rate of speed is deadly force was jury question). However, the evidence here
established that Petitioner drove his vehicle at the officers who were clearly
identifiable as law enforcement officers.
As has been previously discussed, Petitioner was not justified in using force
to resist these officers in the execution of their lawful duty, therefore even if the jury
41

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 42 of 51

had been instructed on the use of both deadly and nondeadly force it is not reasonably
likely that the outcome at trial would have been different. Since the Petitioner cannot
establish prejudice he has failed to state a substantial claim of ineffective assistance
of counsel. This claim should be dismissed as unexhausted and procedurally barred.
L. Appellate Counsel’s Failure to Argue that Jury Instructions Contained a
Fundamental Error
Petitioner contends that appellate counsel should have argued that the trial
court committed fundamental error by instructing the jury that Petitioner’s use of
force was not justified if he was engaged in unlawful activity. He argues that if
counsel had raised this issue his conviction would have been reversed on appeal and
remanded for a new trial.
This claim was raised in state court in the second petition for Writ of habeas
corpus filed in the appellate court. The state appellate court summarily denied the
petition. The state contends that Petitioner’s argument relies on law that evolved
after his conviction became final and argues that counsel could not be ineffective for
\

failing to raise a claim that was not available at the time of the direct appeal.
The petitioner cannot prevail on this claim. Counsel cannot be ineffective for
failing to predict changes in the law. See Spaziano v. Singletary, 36 F.3d 1028,1039
(11th Cir. 1994)(“We have held many times that ‘[reasonably effective
representation cannot and does not include a requirement to make arguments based
42

Ca.se: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 43 of 51

on predictions of how the law may develop.’”). Here the instruction as given was the
standard jury instruction at the time of Petitioner’s trial. The cases relied upon by
Petitioner were not decided until two years after his trial concluded. Furthermore, as
discussed above, there was no fundamental error because Petitioner’s defense was
not prejudiced by this instruction where the jury found that the victims were
identifiable as law enforcement officers who were engaged in the exercise of a lawful
duty. Under these circumstances the state court’s denial of this claim was not
contrary to, or an unreasonable application of, Strickland. This claim should be
denied.
M. Counsel’s Failure to Investigate a Ballistics Expert to Support the
Defense
Petitioner contends that counsel should have investigated and retained a
ballistics expert to explain the placement of shell casings at the scene in order to
corroborate Petitioner’s testimony about how the shooting occurred and to show that
the police tampered with evidence. He proffers that a ballistics expert would have
testified that the location of the shell casings was inconsistent with the officer’s
testimony. He argues that such testimony would have created reasonable doubt of
his guilt and resulted in an acquittal.
This claim was raised in Petitioner’s first Rule 3.850 motion in state court.
The court adopted the state’s reasoning in denying this claim. The State argued that
43

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 44 of 51

Petitioner merely disagreed with counsel’s strategy and that counsel had subjected
the state’s case to adversarial testing. The State further argued that Petitioner’s claim
was based upon speculation about how a ballistics expert might have testified.
The state court properly applied Strickland in denying this claim. Petitioner’s
claim is based on his speculation that a ballistics expert could have impeached the
officers’ testimony of where they were standing when shots were fired. He further
speculates as to how a ballistics expert would have testified that the angles of the
bullet holes were inconsistent with the testimony. He also claims that a ballistics
expert could have testified how far shell casings might jump or bounce once they hit
the ground. He speculates that this evidence would have established that where the
shell casings were found was inconsistent with where the officers testified they were
standing when the shooting occurred, creating an inference that the casings had been
moved. Petitioner’s speculation as to how a ballistics expert might have testified
falls far short of the allegations necessary to establish ineffective assistance of
counsel. “Speculation is insufficient to carry the burden of a habeas corpus petitioner
as to what evidence could have been revealed by further investigation.” Aldrich v.
Wainwright, 111 F.2d 630, 636 (11th Cir. 1985). The state court’s finding that the
claim was too speculative was reasonable. Based on this finding, the state court’s
denial of this claim was not contrary to, or unreasonable application of, Strickland.
This claim should be denied.
44

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 45 of 51

N. Counsel’s Failure to Object to Introduction of an Altered Video
Petitioner contends that counsel failed to object to the introduction of a video
of the incident the he alleges had been edited. He argues that if counsel had objected,
the video would have been inadmissible and it was possible the charges would have
been dismissed.
This claim was raised in the second Rule 3.850 motion which was summarily
denied as successive. The state argues that Petitioner cannot establish prejudice
because the claim is refuted by the record where numerous witnesses attested to the
accuracy of the video recording.
The state court properly denied this claim as it is refuted by the record. Before
the recording was introduced at trial the prosecution presented the testimony of the
deputy who obtained the security camera video. [ECF 35-4, pp 34-35]. The deputy
testified that he made no changes to the recording and placed the recording into
evidence. [Id., p. 35]. Defense counsel took the opportunity to question the deputy
about the chain of custody. [Id.]. The deputy testified that he made a copy of the
original and placed the original in evidence. '[Id.]. Defense counsel sought to clarify
that the copy containing the relevant information had been viewed and was
consistent with the original. [Id., pp. 36-37]. After the prosecutor clarified that the
portion sought to be introduced had been viewed, counsel stipulated to its entry into
evidence and that the exhibit represents a videotape of certain events that occurred
45

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 46 of 51

on April 28, 2007. [Id., p. 39]. The deputy testified the recording was full, accurate
and complete. [Id.].
Before the video was played at trial, the prosecutor explained that the disc had
been reformatted in order to play on the equipment in the courtroom. [ECF 35-5, p.
3]. The video had also been slowed down. [Id.]. Petitioner’s counsel acknowledged
that he had seen the video. [Id.]. Defense counsel replayed the video at the close of
Petitioner s case. [ECF 35-7, p. 10]. He relied upon the video in closing argument to
argue that the officers’ testimony was inconsistent. [Id., p. 29-30].
It is evident from the record that counsel had reviewed the recording and had
no objection to it. His only objection was that he wanted to be assured that the
excerpts being introduced had been viewed and did not contain any irrelevant
content. Counsel utilized the recording in presenting the Petitioner’s case and then
argued that the recording showed inconsistencies in the officers’ testimony. On this
record it cannot be said that the state court’s denial of this claim was contrary to, or
an unreasonable application of, Strickland's ineffective assistance of counsel
standard. This claim should be denied.
O. Newly Discovered Evidence that Counsel Failed to Investigate and
Discover Brady and Giglio Violations
Petitioner contends that newly discovered evidence has revealed Brady and
Giglio violations and that counsel was ineffective for failing to investigate and
46

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 47 of 51

discover these issues.5 He alleges that after his Rule 3.850 motion was denied his
brother hired an expert on Forensic Photography and Evidence Documentation. He
proffers, through an affidavit of his brother, that the expert found that the
videotape establishes there was no shooting in the parking lot, no officers could be
seen discharging their firearms and one of the camera recordings was altered from
its original state. Petitioner argues that if counsel had investigated the video
recordings further he would have discovered that the State had presented false
testimony and false evidence and there is a reasonable probability it would have
affected the outcome of his trial.
Petitioner concedes that this claim was not exhausted as it was only raised in
the successive Rule 3.850 motion that was dismissed as untimely and successive.
The state argues that this claim is unexhausted.
This claim is reliant upon speculation and hearsay provided by Petitioner’s
brother. According to Petitioner, shortly after his first Rule 3.850 Motion was
denied, his brother, Dawson Clairvoyant, went to a store where the manager, Jason
Bimov, recognized him because he looked like Petitioner. Bimov happened to
mention that he had seen the recording of Petitioner being shot at by the police.
Dawson believed that Bimov’s description of the video differed from the video

5 Brady v. Maryland, 373 U.S. 83, 87 (1963), bars the prosecution from suppressing evidence
requested by and favorable to an accused where the evidence is material to either guilt or
punishment, irrespective of the prosecution’s good or bad faith.

47

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 48 of 51

evidence shown to the jury. This led Dawson to believe that the video had been
altered to support the testimony of the five officers who testified. Dawson then spoke
to, Rodney Kimbrough, the former manager of the club where the video was
recorded. Kimbrough told Dawson that he furnished a DVD to a detective that
con tained a clear recording of the entire shooting and that no shooting took place in
the club’s east parking lot.
Dawson was unable to obtain the original copy of the recording but hired
Robert Wyman, an alleged expert of Forensic Photography and Evidence
Documentation. Wyman advised Dawson to obtain copies of the video recordings
that were introduced into evidence. Dawson did so and provided the copies to
Wyman. Wyman allegedly conducted a forensic review and discovered that no
shooting occurred in the east parking lot, no officers could be seen on the video
discharging their firearms in the parking lot and evidence establishes the video
recordings from one of the cameras had been altered.
The only support for these allegations is presented in an affidavit of his brother
Dawson. He has not presented affidavits from the Bimov, Kimbrough or Wyman.
The affidavit is replete with hearsay from these three individuals. Although
Petitioner alleges that a forensic analysis was performed, he does not present this
analysis or an affidavit from Wyman. It is based on this second-hand information
and hearsay that Petitioner contends someone altered the videos. The affidavit of
48

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 49 of 51

Petitioner’s brother is insufficient to establish this claim.
Even taking Petitioner’s allegations as true, he has not established that counsel
was ineffective. The only information provided by Petitioner is that an expert
reviewed the recordings and gave his opinion that no shooting occurred in the east
parking lot and no officers could be seen discharging their firearms in the parking
lot. These are factual conclusions that were presumably based on the expert’s
viewing of the same recording viewed by the jury. The jury had an opportunity to
view the recording and could have found that it was inconsistent with the testimony
of the officers without this expert opinion. Furthermore, although Petitioner claims
that one of the camera feeds was altered, he has not explained how it was altered or
what significance any alleged alteration may have had.
In the absence of anything more than hearsay and speculation as to the effect
this expert’s testimony might have had on the jury’s verdict, Petitioner has failed to
present a substantial claim of ineffective assistance of counsel to overcome the
procedural default of this claim. This claim should be dismissed.
VI.

Certificate of Appealability

Section 2254 Rule 11(a) provides that “[tjhe district court must issue or deny
a certificate of appealability when it enters a final order adverse to the applicant,”
and if a certificate is issued “the court must state the specific issue or issues that
satisfy the showing required by 28 U.S.C. §2253(c)(2).” A timely notice of appeal
49

Case: 9:16-cv-80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 50 of%l

must still be filed, even if the court issues a certificate of appealability. Rules
Governing §2254 Proceedings, Rule 11(b), 28 U.S.C. foil. §2254.
After review of the record, Petitioner is not entitled .to a certificate of
appealability. “A certificate of appealability may issue ... only if the applicant has
made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§2253(c)(2). To merit a certificate of appealability, Petitioner must show that
reasonable jurists would find debatable both (1) the merits of the underlying claims
and (2) the procedural issues he seeks to raise. Slack v. McDaniel 529 U.S. 473,
478, 120 S. Ct. 1595, 146 L.Ed.2d 542 (2000). See also Eagle v. Linahan, 279 F.3d
926, 935 (11th Cir. 2001). Because the claims raised are clearly without merit,
Petitioner cannot satisfy the Slack test.
VII.

Conclusion

Based upon the foregoing, it is recommended that this petition for writ of
habeas corpus be denied, that no Certificate of Appealability issue and the case be
closed.
Any party who objects to this recommendation or anything in it must, within
fourteen (14) days of the date of service of this document, file specific written
objections with the court. Failure to do so will bar a de novo determination by the
District Judge of anything in the recommendation and will bar an attack, on appeal,
of the factual findings of the Magistrate Judge. See 28 U.S.C. § 636(b)(1)(C);
50

Ca/: 9:16-0^80696-KAM

Document #: 41 Entered on FLSD Docket: 11/06/2019

Page 51 ot 51

//
/

Thomas v. Am, 474 U.S. 140, 149 (1985).

/

SIGNED this 6th day of November, 2019.
Jf
UNITEEm^ES MAGISTRATE
JUDGE

cc:

Jethro L. Clairvoyant
W14085
Columbia Correctional Institution
Inmate Mail/Parcels
216 SE Corrections Way
Lake City, FL 32025
PROSE
Georgina Jimenez-Orosa
Attorney General Office
1515 N Flagler Drive
Suite 900
West Palm Beach, FL 33401-3432
Email: CrimAppWPB@MyFloridaLegal.com

51

1

APPENDIX C

A
&r

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT, 1525 PALM BEACH LAKES BLVD., WEST PALM BEACH, FL 33
July 27, 2012

CASE NO.: 4D10-2241
L.T. No.: 2007CF006175AXX
JETHRO CLAIRVOYANT

v.

STATE OF FLORIDA
Appellee / Responden^^O,

Appellant / Petitioners),
BY ORDER OF THE COURT:
ORDERED that appellant's motion filed June 26, 2012, for cla
(written opinion) is hereby denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
Eugene S. Garrett

Attorney General-W.P.B.

kb

HRILtN BEOTTENMULLER, Clerk
Fourth District Court of Appeal

1

UNNOTARIZED OATH
Under penalties of perjury, I declare that I have read the foregoing and that
the facts stated in it are true.

Jethro L. Clairvoyant
DC# W14085

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that I placed this supplemental appendix to petition for
writ of certiorari in the hands of Columbia Correctional Institution main unit prison
officials for mailing to: Clerk of the U.S. Supreme Court 1 First St. NE Washington,
DC, 20543; Solicitor General of the United States, Room 5614, Department of
, Justice, 950 Pennsylvania Ave., N.W., Washington, DC 20530-0001; on this
of July, 2020.

M (

Jejmro L. Clairvoyant
DC# W14085
Columbia Correctional Institution
216 S.E. Corrections Way
Lake City, FL 32025

day

